IN THE SUPREME COURT OF THE UNITED STATES
____________
No. ___
____________
MICHAEL FAUST, IN HIS OFFICIAL CAPACITY AS
DIRECTOR OF THE ARIZONA DEPARTMENT OF CHILD SAFETY,
Applicant,
v.
B.K., BY HER NEXT FRIEND MARGARET TINSLEY,
B.T., BY HIS NEXT FRIEND JENNIFER KUPISZEWSKI,
AND A.C.-B., M.C.-B., D.C.-B., AND J.M., BY THEIR NEXT FRIEND SUSAN BRANDT,
Respondents.
________________________
APPLICATION TO THE HON. ELENA KAGAN
FOR AN EXTENSION OF TIME WITHIN WHICH TO FILE
A PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE NINTH CIRCUIT
________________________
Pursuant to Supreme Court Rule 13(5), Michael Faust, in his official capacity
as Director of the Arizona Department of Child Safety, 1 hereby moves for an
extension of time of 30 days, to and including November 13, 2019, for the filing of a
petition for a writ of certiorari. Unless an extension is granted, the deadline for filing
the petition for certiorari will be October 14, 2019.
In support of this request, Applicant states as follows:

Mr. Faust succeeded Gregory McKay as Director of the Arizona Department of Child Safety
after the Ninth Circuit issued its opinion in this case.
1

1.

The U.S. Court of Appeals for the Ninth Circuit rendered its decision on

on April 26, 2019 (Exhibit 1), and denied rehearing en banc on July 15, 2019 (Exhibit
2). This Court has jurisdiction under 28 U.S.C. §1254(1).
2.

The Great Recession hit Arizona particularly hard. In its wake, the

State’s foster population doubled in a six-year period.

The Arizona Legislature

responded to that development by establishing the Arizona Department of Child
Safety (“DCS”) in 2014. See Ariz. Rev. Stat. §8-451. Since its inception, DCS has
worked tirelessly to improve Arizona’s foster services and protect the children in its
care. Those efforts have borne considerable fruit. Despite being in existence for only
a few years, DCS has succeeded in shrinking caseloads and backlogs and in greatly
diminishing response times for responding to reports of child abuse and neglect. See
J.B. Wogan, How Arizona Fixed Its Broken Child Welfare System in 2 Years,
Governing (Apr. 27, 2017), https://bit.ly/2mPnHjB.
3.

Rather than give this nascent agency time to address the increased

demands on the State’s foster care system, Children’s Rights Incorporated (“CRI”), a
New York City nonprofit with a self-described mission of using “relentless strategic
advocacy and legal action” to “hold governments accountable” and “transform the way
kids are treated in foster care,” 2 filed suit against DCS and the State’s Medicaid
agency in February of 2015 on behalf of ten children in DCS care. The plaintiffs allege
that various DCS “practices” of “failure” have deprived them “of their right to

CRI, Our Mission: What We Do, https://bit.ly/2m8dTku (last visited Sept. 24, 2019); CRI, Our
Campaigns: Class Actions, https://bit.ly/2m6T358 (last visited Sept. 24, 2019).
2

2

adequate and timely physical, dental, and mental health care,” “their right to
placement in a living environment that protects their physical, mental, and emotional
safety, and well-being,” and their right “to timely investigations into allegations of
abuse and neglect while in the state’s custody.” Order 13, No. 2:15-cv-00185-ROS (D.
Ariz. Sept. 30, 2017), Dkt.363. To rectify these alleged injuries, the plaintiffs seek an
order

“Declar[ing]”

defendants’

“violation

of

plaintiffs’

substantive

rights”

“unconstitutional and unlawful”; “Permanently enjoin[ing]” defendants “from
subjecting plaintiffs to practices that violate their rights”; “appoint[ing]” “a neutral
expert” to “monitor[]” the Arizona child welfare system; granting the district court
“continuing jurisdiction to oversee compliance”; and providing such further “remedial
relief” as deemed “appropriate” “to ensure” defendants’ “future compliance.” Second
Amended Complaint 50-52, No. 2:15-cv-00185-ROS (D. Ariz. June 8, 2015), Dkt.37.
4.

Had CRI sued on behalf of the ten original named plaintiffs alone, such

a sweeping request for relief would have been a nonstarter. Yet relief tailored to
those ten plaintiffs’ alleged injuries would not satisfy CRI’s ambition to “transform”
Arizona’s “child welfare agencies” into whatever CRI envisions.

The plaintiffs

accordingly premised their attempt to remake DCS on the federal class action
device—in particular, on Rule 23(b)(2), which permits class actions where “the
[defendant] has acted or refused to act on grounds that apply generally to the class,
so that final injunctive relief or corresponding declaratory relief is appropriate
respecting the class as a whole.” Fed. R. Civ. P. 23(b)(2). The plaintiffs sought to
certify three sprawling classes under Rule 23(b)(2): (1) A class consisting of “all

3

children who are will be in the legal custody of DCS due to a suspicion of abuse or
neglect” (the “General Class”); (2) a subclass consisting of “all children in the General
Class who are not placed in the care of an adult relative or person who has a
significant relationship with the child” (the “Non-Kinship Subclass”); and (3) another
subclass consisting of “all members of the General Class who are entitled to early and
periodic screening, diagnostic, and treatment … services under the federal Medicaid
statute” (the “Medicaid Subclass”). Pls.’ Mot. for Class Certification 6, No. 2:15-cv00185-ROS (D. Ariz. Nov. 29, 2016), Dkt.234.
5.

The district court granted the plaintiffs’ motion for class certification in

full. As the court explained, its analysis was controlled by the Ninth Circuit’s decision
in Parsons v. Ryan, 754 F.3d 657 (9th Cir. 2014) (Reinhardt, J.).
6.

In Parsons, a small group of plaintiffs brought suit on behalf of all 33,000

State prisoners in Arizona, alleging that statewide “practices” governing prisoner
medical care “expose[d]” every prisoner in the State “to a substantial risk of serious
harm to which the defendants [we]re deliberately indifferent.” Id. at 662. The
thousands of men and women in Arizona prisons had discrete problems and different
health needs requiring different levels of medical care, yet the Ninth Circuit held that
those intra-class distinctions made no difference. Id. at 678-79. Even though the
proposed class included some prisoners with terminal illnesses and others who were
perfectly healthy, the Ninth Circuit held that “every inmate suffer[ed] exactly the
same constitutional injury” for purposes of Rule 23 in light of the State’s alleged

4

“practice” of failing to deliver necessary care. Id. at 675. The court accordingly
certified an injunction class under Rule 23(b)(2). Id. at 687-89.
7.

The Arizona Department of Corrections (“ADC”), the defendant in

Parsons, sought rehearing en banc. Before the court acted on the petition, however,
the parties entered into a settlement agreement, and ADC asked the panel to vacate
its opinion. The panel refused, and the full court subsequently denied rehearing.
Judge Ikuta, joined by Judges O’Scannlain, Kozinski, Callahan, Bea, and Smith,
published a dissent.

Parsons v. Ryan, 784 F.3d 571 (9th Cir. 2015) (Ikuta, J.,

dissenting from the denial of rehearing en banc). As Judge Ikuta explained, the
“failure to take [Parsons] en banc in order to vacate it” left intact a precedential
decision that “create[d] a circuit split,” id. at 573 (citing Rouse v. Plantier, 182 F.3d
192 (3d Cir. 1999)), and that defied not one Supreme Court decision but two. Parsons
flouted Wal-Mart Stores, Inc. v. Dukes, 564 U.S. 338, 350 (2011), which held that
class certification is appropriate only where the plaintiffs’ claims “depend upon a
common contention” that “is capable of classwide resolution—which means that
determination of its truth or falsity will resolve an issue that is central to the validity
of each one of the claims in one stroke.” And Parsons defied Lewis v. Casey, 518 U.S.
343, 350 (1996), which held that “a healthy inmate who had suffered no deprivation
of needed medical treatment” could not “claim violation of his constitutional right to
medical care, simply on the ground that the prison medical facilities were
inadequate.” See Parsons, 784 F.3d at 579-83 (Ikuta, J., dissenting from the denial
of rehearing en banc).

5

8.

As the district court here recognized, this case follows directly from

Parsons; as a result, it raises the same fundamental conflicts with decisions of this
Court and other circuits. By authorizing relief under Rule 23(b)(2) that is far broader
than any injunctive relief that could be obtained in any individual suit, the decision
below not only distorts the class action device, but highlights that the Ninth Circuit’s
jurisprudence under Rule 23(b)(2) is incompatible with this Court’s decisions, the
decisions of other circuits, and the Rules Enabling Act, 28 U.S.C. §2072(b). See also
Senne v. Kansas City Royals Baseball Corp., 934 F.3d 918, 937-38 (9th Cir. 2019)
(expressly rejecting the cohesiveness requirement for Rule 23(b)(2) class actions
adopted by the majority of circuits).
9.

Applicant’s counsel, Paul D. Clement, was not involved in the extensive

proceedings below and was only recently retained.

Applicant’s counsel requires

additional time to review the substantial record and prior proceedings in this case in
order to prepare a petition that best presents the arguments for this Court’s review.
10.

Applicant’s counsel also has substantial briefing and argument

obligations between now and October 14, including oral argument in Pulse Network,
L.L.C. v. Visa, Inc., No. 18-20669 (5th Cir.) and a memorandum of points and
authorities in support of summary judgment in Northport Health Services of
Arkansas, LLC v. U.S. Department of Health and Human Services, No. 5:19-cv-05168TLB (W.D. Ark.).

6

WHEREFORE, for the foregoing reasons, Applicant respectfully requests that
an extension of time to and including November 13, 2019, be granted within which
Applicant may file a petition for a writ of certiorari.
Respectfully submitted,

PAUL D. CLEMENT
Counsel of Record
KIRKLAND & ELLIS LLP
1301 Pennsylvania Avenue, NW
Washington, DC 20004
(202) 389-5000
paul.clement@kirkland.com
Counsel for Applicant
October 1, 2019

7

